WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

OFFICE OF THE CLERK

DEC 1 0 2019

No. 19-624
v.

Mark Graf, et al.
(Petitioners)

Hyung Seok Koh, et ux.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
i3t There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Sung Phil Kim and the' Vi 1 1 a gp of * Wheeling

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be iled by a Bar member.
Signature
Date:

December 10, 2019

(Type or print) Name

Allen Wall
5-(3 Mr.

❑ Ms.

❑ Mrs.

❑ Miss

Klein, Thorpe and Jenkins, Ltd.
Address 20 North Wacker Drive, Suite 1660
Firm

City & State
Phone

Chicago, Illinois

Zip

60606

(312) 984-6400

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Mr. James G. Sotos
The Sotos Law Firm, PC
141 West Jackson Boulevard
Suite 1240A
Chicago, Illinois 60604

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

RECEIVED
DEC 16 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

KTJ

20 N. Wacker Drive, Ste 1660
Chicago, Illinois 60606-2903
T 312 984 6400 F 312 984 6444

15010 S. Ravinia Avenue, Ste 10
Orland Park, Illinois 60462-5353
T 708 349 3888 F 708 349 1506
7 Northpoint Drive
Streator, Illinois 61364-1159
T 815 672 3116 F 815 672 0738

KLEIN, THORPE AND JENKINS, LTD.
Attorneys at Law

www.ktjlaw.com
312 984 6454
cpinkston@ktjlaw.com

VIA FEDERAL EXPRESS
December 12, 2019
Clerk of the United States Supreme Court
1 First Street North East
Washington, DC 20543
RE:

Mark Graf, et al v. Hvung Seok Koh, et ux. Case #19-624

To Whom It May Concern:
Enclosed for filing, please find one (1) original and two copies of the Waiver with
Appearance for the above matter.
J. Allen Wall's Application to the Bar is pending.
Please file these documents and return the remaining file-stamped copies to my
attention. I have enclosed a self-addressed stamped envelope for this purpose. If you
have any questions, please do not hesitate to contact me.
Thank you for your assistance.
Sincerely,
KLEIN, THORPE & JENKINS, LTD.

Carol Pinkston
Paralegal
CAP
Enc.
cc:

Allen Wall (w/ encl)

RECEIVED
DEC 16 2019
432058_1

OFFICE OF THE CLERK
SUPREME COURT, U.S.

